HHS/OIG-Audit-"Audit of Observation Service Billings by Baptist Health System September 1, 1995- August 31, 1999," (A-06-01-00088)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Observation Service Billings by Baptist Health System September
1, 1995- August 31, 1999," (A-06-01-00088)
April 26, 2002
Complete Text of Report is available in PDF format
(1.48 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether outpatient observation
services billed by the Baptist Health System (Hospital) met Medicare reimbursement
requirements.  Our review covered service dates between September 1, 1995
- August 31, 1999.  The Hospital billed Medicare for observation services
that did not meet Medicare criteria.  However, prior to the completion
of our audit, fiscal intermediary officials made adjustments of approximately
$3 million in observation charges to the Hospital's cost reports for fiscal
years 1996 through 1999.  The adjustments made by the fiscal intermediary
offset any adjustments resulting from our audit.  Because of the adjustments
we are making no financial recommendations.  The fiscal intermediary concurred
with our procedural recommendations.